<html>
<title> - VA: PATH TO REFORM</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



                          VA: PATH TO REFORM

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 1, 2017

                               __________

                           Serial No. 115-16

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  



         Available via the World Wide Web: http://www.fdsys.gov
                       http://oversight.house.gov
                       
                       
                       
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-496 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7b1c0b143b180e080f131e170b5518141655">[email&#160;protected]</a>                        
                       
                       
                       
              Committee on Oversight and Government Reform

                     Jason Chaffetz, Utah, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Trey Gowdy, South Carolina           Jim Cooper, Tennessee
Blake Farenthold, Texas              Gerald E. Connolly, Virginia
Virginia Foxx, North Carolina        Robin L. Kelly, Illinois
Thomas Massie, Kentucky              Brenda L. Lawrence, Michigan
Mark Meadows, North Carolina         Bonnie Watson Coleman, New Jersey
Ron DeSantis, Florida                Stacey E. Plaskett, Virgin Islands
Dennis A. Ross, Florida              Val Butler Demings, Florida
Mark Walker, North Carolina          Raja Krishnamoorthi, Illinois
Rod Blum, Iowa                       Jamie Raskin, Maryland
Jody B. Hice, Georgia                Peter Welch, Vermont
Steve Russell, Oklahoma              Matthew Cartwright, Pennsylvania
Glenn Grothman, Wisconsin            Mark DeSaulnier, California
Will Hurd, Texas                     John Sarbanes, Maryland
Gary J. Palmer, Alabama
James Comer, Kentucky
Paul Mitchell, Michigan

                   Jonathan Skladany, Staff Director
                    William McKenna, General Counsel
               Brick Christensen, Senior Military Advisor
                    Sharon Casey, Deputy Chief Clerk
                 David Rapallo, Minority Staff Director
                                 ------                                

                   Subcommittee on National Security

                    Ron DeSantis, Florida, Chairman
Steve Russell, Oklahoma, Vice Chair  Stephen F. Lynch, Massachusetts, 
John J. Duncan, Jr., Tennessee           Ranking Member
Justin Amash, Michigan               Val Butler Demings, Florida
Virginia Foxx, North Carolina        Peter Welch, Vermont
Jody B. Hice, Georgia                Mark DeSaulnier, California
James Comer, Kentucky                John P. Sarbanes, Maryland
                                     Vacancy
                                     Vacancy
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 1, 2017....................................     1

                               WITNESSES

Ms. Pamela S. Mitchell, Acting Assistant Secretary, Office of 
  Human Resources and Administration, U.S. Department of Veterans 
  Affairs
    Oral Statement...............................................     5
    Written Statement............................................     7
Mr. Nicholas Dahl, Deputy Assistant Inspector General for Audits 
  and Evaluations, Office of Inspector General, U.S. Department 
  of Veterans Affairs
    Oral Statement...............................................    17
    Written Statement............................................    19
Irene J. Barnett, Ph.D., Director of the Bedford Office for 
  Audits and Evaluations, Office of Inspector General, U.S. 
  Department of Veterans Affairs

                                APPENDIX

VA Office of Inspector General Review of Alleged Human Resources 
  Delays at the Atlanta VA Medical Center Report, submitted by 
  Mr. Hice.......................................................    38
Letter of March 1, 2017, from the American Federation of 
  Government Employees, submitted by Mr. Lynch...................    60

 
                           VA: PATH TO REFORM

                              ----------                              


                        Wednesday, March 1, 2017

                  House of Representatives,
                 Subcommittee on National Security,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 3:28 p.m., in 
Room 2154, Rayburn House Office Building, Hon. Ron DeSantis 
[chairman of the subcommittee] presiding.
    Present: Representatives DeSantis, Duncan, Amash, Hice, 
Lynch, Demings, DeSaulnier, and Sarbanes.
    Mr. DeSantis. The Subcommittee on National Security will 
come to order.
    Without objection, the chair is authorized to declare 
recess at any time. The chair notes the presence of our 
colleagues from the full Committee of Oversight and Government 
Reform. We appreciate your interest in this topic and welcome 
your participation today, when you get here.
    I ask unanimous consent that all members of the Committee 
on Oversight and Government Reform be allowed to fully 
participate in today's hearing.
    Without objection, it is so ordered.
    With a new administration and VA Secretary, we have an 
opportunity to set a new course at the Veterans Administration. 
The VA is the topic of our first subcommittee hearing for a 
reason. This subcommittee stands foursquare behind our veterans 
and is committed to ensuring that veterans receive the benefits 
they have earned.
    Over the past several years, the VA has not lived up to the 
promises that have been made to our Nation's heroes. Many 
veterans have experienced significant problems receiving the 
health care they deserve. The problems and scandals of the last 
few years have undermined faith in the VA.
    The point of this hearing today is to shed light on the 
continuing cases of fraud, waste, and abuse at the VA that 
require reform. The 2014 wait-time scandal brought to light a 
number of serious abuses. That has, sad to say, not been fully 
corrected. For example, the VA charged a doctor with 
prescribing high amounts of opiates to patients receiving care 
for mental health. This doctor received several thousands of 
dollars in bonus money 9 months after an OIG report exposed his 
poor prescription practices.
    In addition, one VA senior executive volunteered to 
transfer to a new office. The new position required less 
responsibility, but this employee still received relocation 
incentives and the same annual salary of over $180,000.
    VA staff members in a southern Arizona VA manipulated 
patient wait times in order to meet incentive requirements and 
national scheduling procedures. These staff members received 
bonuses even though they were not meeting national scheduling 
standards.
    Another doctor, this time in a Pittsburgh VA, received a 
$62,895 bonus for implementing an infection prevention program. 
Three days before receiving this bonus, the VA Office of 
Inspector General issued a report finding that six veterans 
died from Legionnaires' disease because of systematic failures.
    In an Atlanta VA medical center, there was a backlog of 300 
unsettled background investigations for new hires because of 
human resource delays.
    These are a few of the examples that demonstrate the need 
for reform.
    Now Secretary Shulkin has set out a vision for improving 
some of VA's programs to better serve our veterans. One of 
Secretary Shulkin's top priorities is to reshape the Veterans 
Choice Program. This includes removing a rule regarding 
veteran's ability to seek care at non-VA facilities. It's 
important to remove obstacles that make it difficult for 
veterans to receive medical care. The Choice Program needs to 
serve its intended function, and if that requires congressional 
action, then Congress should act forthwith.
    The new Secretary will also prioritize, improve mental 
health care. According to recent VA statistics, an average of 
20 veterans died from suicide each day in the year 2014. These 
statistics reveal the need to improve quality of care and 
suicide prevention.
    We have today representatives from VA's Office of Inspector 
General to report on some of these troubling cases. We are also 
joined by Acting Assistant Secretary Pamela Mitchell, here to 
testify on behalf of Secretary Shulkin. It is my hope we can 
have an honest, frank, and positive discussion of the VA's 
shortcomings and chart a course to reform.
    One reform that I've proposed is to expand treatment 
options for veterans suffering from post-traumatic stress by 
authorizing the VA to link veterans suffering from PTS with a 
specially trained service dog, which has proven to be effective 
with private organizations. For those that have tried more 
conventional forms of treatment and experienced no relief for 
their suffering, this could actually be a lifesafer, and we've 
had veterans say that their life has been saved because of a 
service dog.
    Just as we ensure that warfighters have every resource 
available to protect them from the dangers of the battlefield, 
so too must we provide the veterans transitioning to civilian 
life with the resources to treat the invisible and lingering 
effects of the realities of war.
    The lives of our returning soldiers, sailors, airmen, and 
marines are at stake. We can't afford to fail them after they 
served us. Those who risked their life for this country deserve 
the absolute best care upon their return. Time is of the 
essence.
    I would like to thank our witnesses for their testimony 
today. And I now recognize the ranking member of the 
subcommittee who hails from the Super Bowl champion Boston 
area, yet another title, Mr. Lynch.
    Mr. Lynch. You are very kind, Mr. Chairman. I appreciate 
your courtesy as well.
    And just because this is our first subcommittee hearing in 
the new session, I just want to say that I'd again like to 
express my commitment to working with you and your very capable 
staff. You've got great--we both have great staff here that 
work on behalf of the American people. And I think that our 
bipartisan oversight work will prove critical to identifying 
existing and emerging threats. It will also further the 
important national security missions carried out by Federal 
agencies and our dedicated military and civilian personnel on 
behalf of the American people.
    Chief among these missions is ensuring that more than 21 
million brave men and women who have served in defense of our 
Nation and represent America's veterans community receive the 
quality of care and the opportunity to transition to a civilian 
life that is commensurate with their service and their 
sacrifice. To this end, I welcome today's hearing to examine 
ongoing reform efforts of the Department of Veterans Affairs. 
And I'd also like to thank our witnesses for helping the 
committee with its work.
    It is my understanding that this hearing will focus on 
recent audit work conducted by the Office of the VA Inspector 
General and to examine so-called recruitment, retention, and 
relocation incentives that were previously awarded to certain 
senior level and VA central office employees. In particular, a 
January 2017 audit report that was issued by the inspector 
general determined that, absent additional reforms, the VA will 
risk spending an estimated $158.7 million in unsupported 
bonuses and forfeiting $3.9 million in bonuses that should be 
recouped through fiscal year 2019. And I agree with the 
chairman that this area merits meaningful congressional 
oversight.
    However, I would also urge that our subcommittee examine a 
more immediate and serious threat that is facing our veterans 
community, and that is, quite frankly, the negative impact on 
veterans services that will be caused by President Trump's 
executive memorandum to establish an indefinite, indiscriminate 
hiring freeze within the Federal Government. This action stops 
all Federal agencies from hiring full-time Federal workers, 
including individuals to fill 9,000 vacancies at the VA serving 
critical functions. The predictable consequences will be to 
degrade the essential services that our veterans and the 
American public rely on, rescind the opportunities that 
America's veterans have earned. And for that reason, veterans 
organizations, ranging from the American Legion, the Veterans 
of Foreign Wars of the United States, VFW, and the DAV, 
Disabled American Veterans, and Iraq and Afghanistan Veterans 
of America, continue to underscore the devastating effects of 
the hiring freeze on our returning servicemen and -women.
    As I noted in a letter signed by 107 Members of Congress 
urging President Trump to reconsider his decision, past hiring 
freezes enacted during both Democratic and Republican 
administrations have proven to decrease government efficiency, 
accountability, and transparency at the expense of public 
services and the American taxpayer.
    As reported by the independent Government Accountability 
Office in its seminal 1992 report examining the governmentwide 
freezes implemented under both President Reagan and President 
Carter, these actions severely disrupted critical agency 
operations and diminished Federal oversight of agency programs. 
I would note that one Carter administration hiring freeze 
caused a clerical staff shortage at the VA medical center that 
required healthcare professionals to prioritize administrative 
duties over their core job functions. Not surprisingly, this 
led to increased patient wait times and severe delays in the 
processing of medical examinations.
    The report also found the hiring freeze, quote, ``caused 
decreased oversight of Federal programs, making it more 
difficult for the inspector general officers to do their 
jobs,'' close quote, something we should remember as we review 
the critical work of the inspector general for Veterans Affairs 
today.
    Moreover, the current hiring freeze is already having a 
drastic impact on the ability of our veterans to transition 
back to civilian life. That's because America's veterans make 
up one-third of our Federal workforce and new hires at the 
Department of Defense, the VA, the Department of 
Transportation, and other agencies nationwide. According to the 
Office of Personnel Management, veterans hiring in the Federal 
Government has also risen significantly in recent years, with 
Federal agencies hiring an estimated 6,000 more veterans in 
fiscal year 2015 than the previous year. That's a total of 
71,000 new veteran hires and a veteran hire percentage of 32.5 
percent within the Federal Government.
    So you see, by instituting a hiring freeze in the Federal 
Government, we're blocking out, we're freezing the opportunity 
of returning veterans to go to work. More than 31,000 of these 
new hires hired within the Federal Government were disabled 
veterans, including over 21,000 veterans with a disability 
rating of over 30 percent.
    In order to ensure that the Federal Government does not 
close its doors to America's veterans seeking to continue to 
serve the American people in a Federal Government job, I 
recently introduced H.R. 1001, the Veterans Federal Hiring 
Protection Act. This legislation would simply exempt veterans 
from the hiring freeze within the Federal Government and is 
even more critical at a time when the Bureau of Labor 
Statistics just reported an unemployment rate for our newest 
generation of veterans of 6.3 percent in January of 2017. 
That's an increase from 5.7 the previous year and represents 
over 200,000 Iraq and Afghan veterans who are looking for work 
right now. H.R. 1001 has been cosponsored by over 25 Members of 
Congress. And I strongly urge my colleagues on both sides of 
the aisle to join me in this effort.
    In his joint address to Congress last night, President 
Trump stated, quote, ``Our veterans have delivered for this 
Nation, and now we must deliver for them,'' close quote. So the 
Federal hiring freeze will make it extremely difficult to live 
up to that promise.
    Mr. Chairman, I look forward to today's hearing, and I 
yield back the balance of my time.
    Mr. DeSantis. The gentleman yields back. Thank you.
    I will hold the record open for 5 legislative days for any 
members who would like to submit a written statement.
    We'll now recognize our panel of witnesses. I'm pleased to 
welcome Ms. Pamela Mitchell, Acting Assistant Secretary at the 
Office of Human Resources and Administration within the U.S. 
Department of Veterans Affairs; Mr. Nicholas Dahl, Deputy 
Assistant Inspector General for Audits and Evaluations within 
the Office of Inspector General at the U.S. Department of 
Veterans Affairs; and Dr. Irene Barnett, Director of the 
Bedford Office of the Audits and Evaluations within the Office 
of Inspector General at the U.S. Department of Veterans 
Affairs.
    Welcome to you all.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify. So if you can please rise and raise your 
right-hand.
    Do you solemnly swear or affirm the that testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth so help you God?
    Thank you. Please be seated. All witnesses answered in the 
affirmative.
    In order to allow time for discussion, we'd appreciate it 
if you would please limit your testimony to 5 minutes. Your 
entire written statement will be part of the record.
    Assistant Secretary Mitchell, you're recognized for 5 
minutes.

                       WITNESS STATEMENTS

                  STATEMENT OF PAMELA MITCHELL

    Ms. Mitchell. Good afternoon, Chairman DeSantis, Ranking 
Member Lynch, and members of the subcommittee. Thank you for 
the opportunity to discuss internal controls for use of 
recruitment, relocation, and retention incentives, commonly 
known as the 3Rs, within the Department of Veterans Affairs.
    VA requires talented employees, including highly trained 
healthcare professionals, to serve the needs of our Nation's 
veterans. We're competing in tough labor markets for skilled 
personnel, both in the public and the private sectors. The 3Rs 
are important human resources tools to help us remain 
competitive in recruiting and retaining the best personnel to 
serve our veterans. To that end, we very much appreciate the 
inspector general's recommendations to improve controls over 
use of the 3Rs, as outlined in their January 2017 report. This 
report was based on incentives awarded during fiscal year 2014.
    I'd like to draw your attention to what the Department has 
done, both in the years prior to and following the period 
covered by the IG report, to more effectively manage use of the 
3Rs. First, I'd like to note that the size of the VA workforce 
has increased by 22.5 percent since 2011, from about 296,000 
employees to about 362,000. During that same period, we 
decreased spending on the 3Rs by 50 percent, from approximately 
144 million in 2011 to approximately 72 million projected for 
2017.
    In April 2015, we centralized processing of all senior 
executive personnel actions under the Corporate Senior 
Executive Management Office, or CSEMO, implementing additional 
internal controls for 3R payments to senior executives. This 
ensures that proper justifications are made to support payment 
of incentives and that executives are fulfilling agreed-upon 
service periods or that they repay or request a waiver from 
repayment.
    As a result of this centralization, our use of retention 
incentives for executives in particular has decreased 
dramatically. From approximately $390,000 in fiscal year 2014 
to about $17,000 in fiscal year 2017 to date.
    Our VA handbook on pay administration was significantly 
revised back in April 2013 to require an explanation of an 
organization's workforce and succession plan as part of the 
request for or review of a retention incentive.
    We're in the process of further updating the handbook to 
reinforce that requirement by requiring a senior leader to 
certify that this plan was reviewed. This process will also 
require the signatory to attest that all incentives have been 
reviewed for compliance with VA policy and that appropriate 
action has been taken to initiate debt collection from 
individuals who did not fulfill their required service 
obligation.
    In the meantime, VA has published interim guidance 
emphasizing that HR specialists must obtain authorization for 
an incentive from the appropriate official prior to including 
one in a vacancy announcement. Significantly, this interim 
guidance also includes tools to assist our hiring managers and 
HR professionals, helping ensure they follow proper procedures 
when offering an incentive. Additionally, we've developed 
training designed to help them and us to help eliminate 
potential misuse of these flexibilities. And this year, we will 
ask each administration and staff office to submit a report on 
the incentives they authorized during 2016 certified by the 
most senior leader in each organization.
    In closing, I'd like to express on behalf of the VA 
workforce our commitment to the Department's mission to serve 
veterans. To accomplish that mission requires continued 
competition for top talents in tough markets, particularly in 
the private sector for healthcare professionals. The 3Rs are 
key human resources tool we need to help us in that 
competition, particularly when we are faced with serious hiring 
challenges. We are also committed to ensuring careful 
consideration and effective oversight of 3R use in the VA.
    Thank you. I look forward to answering your questions.
    [Prepared statement of Ms. Mitchell follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DeSantis. Thank you.
    Mr. Dahl, you're up for 5 minutes.

                   STATEMENT OF NICHOLAS DAHL

    Mr. Dahl. Mr. Chairman, Ranking Member Lynch, and Members 
of the Subcommittee, thank you for the opportunity to testify 
today on the Office of Inspector General's work related to two 
key human capital programs, the 3R incentive program and the 
drug-free workplace program.
    VHA provides health care to about 7 million veterans each 
year through a large network of medical centers and outpatient 
clinics. To accomplish this, VHA employs over 350,000 people, 
including physicians, nurses, other healthcare professionals 
and administrative employees. VHA uses human capital 
flexibilities, such as the 3R incentives, to attract and retain 
talented employees for its medical facilities. These incentives 
provide VA with important tools to fill positions that support 
the agency's critical mission. In fiscal year 2015, VA spent 
more than $67 million on 3R incentives, with VHA accounting for 
almost all of this spending.
    When used prudently and properly, recruitment and 
relocation incentives help VA attract qualified candidates with 
in-demand skills and competencies who would otherwise not 
consider working in the Federal Government or working at 
locations where positions are difficult to fill. Retention 
incentives enable VA to retain employees whose services are 
essential to its mission and who would otherwise leave Federal 
service.
    VA also administers a drug-free workplace program, which 
serves an important role in VA fulfilling its responsibility to 
protect patients and employees. VA has a designated safety-
sensitive occupational series that require drug testing as 
testing-designated positions, including positions such as 
physicians, nurses, and police officers. There are three key 
parts of this program: first, pre-employment drug testing for 
testing-designated positions; second, random drug testing of 
employees in testing-designated positions; and, third, drug 
testing of employees when there is a reasonable suspicion of 
on-the-job drug use or where drug use is suspected following a 
workplace accident or injury.
    In January, we reported VA needed to improve controls over 
its use of 3R incentives to ensure these pay authorities are 
strategically and prudently used to assist in their recruitment 
and retention of highly qualified employees in hard-to-fill 
positions. We determined VA's controls over the incentives were 
inadequate and projected VA would spend almost $159 million on 
unsupported incentives in fiscal years 2015 through 2019.
    Specifically, we reported the following related to VHA's 
use of 3R incentives: First, about 33 percent of the 
recruitment incentives VHA awarded in fiscal year 2014 were not 
properly authorized. Next, about 64 percent of the relocation 
incentives VHA awarded were not properly authorized. And, 
finally, about 69 percent of retention incentives VHA awarded 
did not include adequate workforce and succession plans.
    We made 10 recommendations to the Assistant Secretary for 
Human Resources, including recommendations to review and update 
procedures to ensure recruitment and relocation incentives are 
justified and properly authorized and to develop internal 
controls to monitor compliance with developing succession plans 
to reduce VA's reliance on retention incentives.
    The Assistant Secretary concurred with our recommendations 
and provided responsive corrective action plans. We consider 
three recommendations closed due to actions VA has already 
taken, and VA continues to work on implementing the remaining 
recommendations.
    In March 2015, we issued a report detailing the results of 
an audit of VA's drug-free workplace program. We identified 
program weaknesses in three areas. First, pre-employment 
applicant drug testing: For that, we reported VA did not ensure 
compliance with policy to drug test all applicants selected for 
testing-designated positions prior to appointment. Instead, VA 
only selected about 3 of every 10 applicants for testing.
    Second, employee random drug testing: We estimated VA 
achieved a national drug testing rate of 68 percent of 
employees selected for random testing in fiscal year 2013.
    And, finally, reasonable-suspicion drug testing: VA lacked 
sufficient oversight practices to monitor whether facilities 
referred all employees with a positive drug test result to the 
employee assistance program. Based on our work, we determined 
VA's program was not accomplishing its primary goal of ensuring 
illegal drug use was eliminated. We made five recommendations, 
of which one remains open.
    In conclusion, VA has faced significant challenges in 
recruiting staff into key positions such as physicians and 
nurses. While we recognize the importance of VA having the 
ability to use the 3R incentives to meet staffing challenges 
and strategically manage its workforce, the results of our 
audit demonstrate that VA needs to take action to improve the 
management of its 3R incentive program. Also, in the absence of 
effective oversight of its drug-free workplace program, VA may 
not be adequately reducing the risks to the safety and well-
being of veterans and employees.
    Mr. Chairman, this concludes my statement, and we would be 
happy to answer any questions that you or other members of the 
subcommittee may have.
    [Prepared statement of Mr. Dahl follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DeSantis. Thank you.
    Dr. Barnett, you're up for 5 minutes.
    Ms. Barnett. Thank you very much, but my colleague, Nick 
Dahl, gave our official statement.
    Mr. DeSantis. Wonderful.
    Well, I now recognize myself for 5 minutes.
    Secretary Mitchell, in a recent news article, Secretary 
Shulkin noted that one of his top priorities is to reform the 
Veterans Choice Act. How will the VA go about doing that, or 
how will the Secretary go about doing that?
    Ms. Mitchell. Chairman DeSantis, I have no personal 
knowledge of that that I can offer. But I do know that the 
Secretary is going to be testifying next week.
    Mr. DeSantis. In front of the House VA Committee?
    Ms. Mitchell. I believe that's correct.
    Mr. DeSantis. Are you familiar with the interview he gave 
to Stars and Stripes a couple days ago?
    Ms. Mitchell. I'm not extremely familiar, no, sir.
    Mr. DeSantis. So he wants to eliminate the 40-mile, 30-day 
rule for non-VA care under the Veterans Choice Act. I support 
that. I wonder, though, would that require a change of statute, 
or does he think he can do that through the regulations? I 
guess you don't know that?
    Ms. Mitchell. No, sir. That's not within my purview or area 
of expertise.
    Mr. DeSantis. Well, we would like to know because I think 
that is something that veterans have been frustrated with. 
Congress passed this several years ago. There was a lot of 
fanfare about it. It just has not actually done the job, and it 
has not met the obligations.
    Let me ask you this, Secretary Shulkin in a recent 
interview on FOX News stressed the importance for VA employees 
to have due process. So what is exactly the process for firing 
an individual within the VA?
    Ms. Mitchell. Well, there are different processes depending 
on the situation. There are conduct-based issues that occur, 
and there are performance-based issues that occur. And so they 
take different paths, and then there are also different 
processes depending on whether it's a title 5 employee or a 
title 38 employee.
    Mr. DeSantis. So conduct-based is misconduct you're saying.
    Ms. Mitchell. Correct.
    Mr. DeSantis. People that do something wrong. I guess if 
you were to be convicted for something somewhere, that would 
obviously be an issue.
    Performance-based, let's talk about performance-based. What 
is the process if somebody is a poor performer? How would the 
VA move to get that person out if they are not serving the 
veterans well?
    Ms. Mitchell. Well, typically, the first thing that would 
happen is that there would be a discussion between the 
supervisor and the employee. And that would be followed by 
what's called a performance improvement plan, or a PIP, and 
then an employee is given a period of time.
    Mr. DeSantis. How long typically?
    Ms. Mitchell. At least 30 days, but sometimes longer. It 
may depend on what the actual issue of performance is. And so 
then there's a period of time to look at, is the individual 
improving? Are there still issues to look at that? And then, if 
there is no improvement over a period of time, which again may 
vary, then a variety of things could happen. There has to be a 
proposal made as to what the employee's notified as to what 
will happen, and then a decision is made.
    Mr. DeSantis. By who?
    Ms. Mitchell. By the--well, if we're talking about a GS 
employee, so it would be the hiring--I'm sorry--the supervisor 
who would make a decision typically, or it could go up to 
higher level. Again, it's going to depend on the level of what 
we're talking about. But typically the supervisor would be 
working with the employee on this and making different 
decisions.
    Mr. DeSantis. Do you know how many human resources 
employees at the VA were terminated last year or the year 
before?
    Ms. Mitchell. No. I'm sorry. I don't have that detail. But 
I would be happy to take that for the record.
    Mr. DeSantis. Yeah, we would definitely like to get that.
    In his interview, Secretary Shulkin claimed that he would 
fire any VA employee who had been complicit in any waste, 
fraud, or abuse, but I think that's a little bit easier said 
than done, given--I mean, you articulated a relatively complex 
process. Is there any way that this can be streamlined so that, 
when we identify examples of poor performance or misconduct, 
that this can be dealt with very expeditiously?
    Ms. Mitchell. Well, I know that we have had a team working 
with staffers here on the Hill to take a look at that. I know 
that a bill was introduced yesterday, and we're currently 
reviewing that right now.
    Mr. DeSantis. In the same interview, the Secretary said 
that he would like to use whistleblowers to bring issues to the 
forefront. I take this to mean that the Secretary believes that 
whistleblower process either has been inadequate or needs 
somehow to be reformed. Do you have any idea how he intends to 
do this? Is it going to be a revised process? Or what hasn't 
been done up to this point that now is going to be done?
    Ms. Mitchell. I'm sorry. I don't have any knowledge of 
that, but again, I would be happy to take that for the record.
    Mr. DeSantis. Well, I appreciate your testimony.
    My time has expired. I want to recognize the ranking member 
now, Mr. Lynch, for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman.
    And, again, I want to thank the witnesses for your 
attendance and for helping us.
    Ms. Mitchell, thank you for the wonderful care that many of 
our veterans receive at the VA and for all the good work that 
you do.
    Mr. Dahl, Dr. Barnett, thank you very much for your 
oversight because I think the work that you do makes sure that 
we meet our obligations that we owe to our veterans. So I don't 
see an adversarial relationship here. I see people trying to do 
good work, and I see the Office of the Inspector General as 
just trying to make sure that we keep our game at a level that 
it should be.
    Let me ask you, though, we've talked a little bit this 
morning about the hiring freeze in the VA and across the 
Federal Government. A lot of people don't realize that about 30 
percent of the employees for the Federal Government that work 
in the Federal Government are veterans. And it's even higher at 
the VA. We have about 32.5 percent of the people who work at 
the VA are veterans. So I have three major VA hospitals in my 
district. One is in Brockton. One is in West Roxbury. And one 
is in Jamaica Plain. I'm a frequent flier to those hospitals. 
And I typically will just pull people aside and talk, whether 
they are orderlies or maintenance or nurses or docs or 
therapists. I'll often ask them how they came to work at the 
VA. And I don't think I've met anybody yet who was not a 
veteran. So maybe that's just in my district. But I am 
enormously proud of the work that they do there.
    I know that we had problems down in Phoenix with the VA. 
Very unfortunate. We even had problems in a couple of other 
cities as well. I think San Antonio was one, but I'm very happy 
to say that, when the VA went back--and I know the Inspector 
General's Office was involved in that, and we did a whole 
assessment--my three hospitals got very, very high marks, as 
did the Bedford facility, which has a state-of-the-art 
Alzheimer's facility there. So I know this committee, we often 
have criticisms, but I don't want it just to be about 
criticisms. I want to understand you understand we appreciate 
the good work that's being done.
    I have amazing people who work at the VA all around this 
country. And I know more personally the ones in my district, 
and they are a blessing each and every day what they for our 
veterans.
    And what concerns me is this hiring freeze. So we have 
critical positions that are--about 9,000 positions are vacant 
right now at the VA. And these vacancies serve critical 
functions. And so I would like to ask Ms. Mitchell, can you 
tell me what the impact would be if we continue this hiring 
freeze that prevents us from filling those critical positions, 
especially--especially--with candidates who are veterans who 
normally would have a preference but now are being shut out?
    Ms. Mitchell. Thank you for that question. First of all, 
let me say that, by virtue of the authority conferred by the 
Presidential memorandum, then Acting Secretary Bob Snyder took 
fairly immediate action to exempt a number of positions from 
the hiring freeze as tied to public safety. And so those 
essentially included folks involved in providing direct patient 
care as well as our cemetery workers who take care of burials 
for our veterans and their families. So that itself was a large 
mitigating factor. And we continue to look as we move forward 
as to whether there are other positions that should be 
considered for exemption.
    Mr. Lynch. I've had veterans come to me, though, in 
radiology and other positions that are not exempted. So they've 
been stopped. A Navy veteran just last week trying to get on at 
the VA and is being prevented because of the freeze. So what 
about the positions that have not been exempted? There are a 
lot of them, based on the material I was given. There are there 
are a lot of positions that are not exempt.
    Ms. Mitchell. That's correct.
    Mr. Lynch. What will be the impact on those?
    Ms. Mitchell. Well, it is too early right now to assess the 
impact because we're about 30 days in. I think the most 
important thing I could tell you is that we continue to look at 
vacancies. And our leaders across the Department continue to 
look at the impact in their various areas. And certainly, as 
appropriate, we'll be coming in and asking for relief.
    Mr. Lynch. Okay.
    Let me ask the same question to Mr. Dahl over at the VA 
Office of Inspector General. I know, in the past, the inspector 
generals have been critical of this type of freeze back when 
President Reagan did it and back when President Carter. This is 
not a partisan issue. Democrats and Republicans have tried this 
approach in the past, and it's had disastrous effects, but I 
would like to hear from you in terms of what you think this 
might lead to.
    Mr. Dahl. A hiring freeze is definitely going have an 
impact on our immediate operations. We've been fortunate that 
Congress has been supportive recently to help us right-size. 
Historically, we are a small office of inspector generals, 
especially when compared to the size of the overall Department 
and the budget of the overall Department. Fortunately, we have 
got a 4-year appropriation. We've been given additional money 
to beef up our staff. But we have about 100 open positions 
right now below our ceiling. We've made the determination about 
half of those meet the exemptions because they deal with public 
safety or national security, but that leaves half of our 
positions that we have not exempted. So that will impact our 
ability to provide the level of oversight that we should be 
providing.
    Mr. Lynch. Okay. That's fair enough. And I know I'm over my 
time. So I appreciate that. And is it fair to say that the 
longer this freeze goes on, the more difficult it becomes?
    Mr. Dahl. I would say so. I mean, obviously the Department 
will probably feel some impact too, but their operations are 
going to continue----
    Mr. Lynch. Okay.
    Mr. Dahl. --without the bodies we need to provide the level 
of oversight that we should by providing.
    Mr. Lynch. Thank you.
    I yield back. Thank you, Mr. Chairman.
    Mr. DeSantis. The gentleman's time has expired.
    I will note for the record the VFW head--national commander 
actually spoke with Secretary Shulkin about this hiring freeze 
effect on the VA. And he reported that the Secretary's response 
was that the agency was satisfied with the exemptions. I just 
wanted--I know you can't necessarily speak for him as we had 
asked earlier, but that's what we have from the VFW.
    The chair now recognizes the gentlewoman from Florida. 
We've actually had her husband testify with the joint committee 
here last Congress. We want to first welcome you to the 
committee. It is good to have another Floridian, and you're 
recognized for 5 minutes.
    Mrs. Demings. Thank you so much, Mr. Chairman.
    And thank you again to our witnesses for being here today 
and for the critical role that you are doing for our country.
    In holding this hearing on VA's path to reform, we should 
not lose sight of I think the larger issue, that far from 
progress on reform, veterans face substantial harm, I believe, 
from President Trump's hiring ban.
    Secretary--or Assistant Secretary Mitchell, are you aware 
of the number of unfilled job openings at the VA?
    Ms. Mitchell. Right now, we have approximately 48,000 
vacancies. In the neighborhood of 36,000 of those have been 
exempted from the hiring freeze.
    Mrs. Demings. Do you know how many jobs openings are from 
the Veterans Benefits Administration?
    Ms. Mitchell. I can take a moment to look that up very 
quickly, or I can take that for the record.
    Mrs. Demings. Please take it for the record.
    Also, to Secretary Snyder, Secretary Snyder has exempted 
over 90 occupations from President Trump's recently announced 
hiring ban. Do you know if Secretary Snyder exempted any 
occupations within the VBA, any specific occupations?
    Ms. Mitchell. No. There were no occupations exempted within 
the VBA.
    Mrs. Demings. For fiscal year 2017, the VA requested 
funding from VBA to hire an additional 300 claims processors. 
Would you agree that the VA cannot now hire these additional 
claim processors because of President Trump's hiring ban?
    Ms. Mitchell. At this point, they are not exempt positions.
    Mrs. Demings. They are not exempt positions. Okay. Just a 
second.
    The VA recently noted that it, and I quote, ``has made 
dramatic progress in reducing the backlog and proving 
timeliness of decisions and reducing the overall pending 
inventory of disability rating claims while at the same time 
improving the quality of its decisions.'' Secretary Mitchell, 
how will President Trump's hiring ban impact the VA's progress 
on this front?
    Ms. Mitchell. At this point in time, I know that VBA is 
monitoring that very closely. And we are only about a month 
into the hiring freeze. So it is a little early to give you a 
strong assessment on that.
    Mrs. Demings. Would you say you've seen no change at all in 
the timeliness of the decisions, of the process at all within 
the last month?
    Ms. Mitchell. That's not within my area of responsibility. 
So I would be happy to take that for the record for you.
    Thank you. I yield back.
    Mr. Hice. [presiding.] All right.
    I am going to recognize myself. I want to begin with the 
Office of the Inspector General and the report, the review of 
alleged human resources delays in the Atlanta medical center. I 
would ask unanimous consent for it to be added to the record.
    Without objection, so ordered.
    Mr. Hice. I have a great deal of issues, specifically with 
this report that has come out, and I want to thank you for 
being here, but it outlines some serious failures in the 
Atlanta VA. And in particular, some things that came out of 
great concern personally was the failure to conduct drug tests 
on employees, and they also allowed over 200 employees who had 
not completed background checks to work directly with some of 
our veterans for several months and, in some cases, even years. 
This is a huge VA medical center in Atlanta, servicing some 
well in excess of 100,000 veterans a year. And I'm just curious 
how many of these people had no drug test or background checks? 
How many veterans potentially, if you can use the word, were 
exposed to these types of individuals, and why were they note 
adequately checked?
    Mr. Dahl. Congressman, there was just a lack of appropriate 
oversight at the facility to ensure that the drug test program 
was being administered. The person that was responsible for the 
program left. The backup person did not take on the 
responsibilities as they should have. This happened for a 6-
month period. I can't tell you how many people should have been 
subjected to the drug testing during the 6-month period. But 
they certainly were coming into contact with the patients and 
other employees at the medical center.
    Mr. Hice. And how long did that take, did that last?
    Mr. Dahl. Well, there was a 6-month period where there was 
no drug test at all.
    Mr. Hice. Is that normal?
    Mr. Dahl. No, sir.
    Mr. Hice. How long typically?
    Mr. Dahl. Well, we'd like to think that every facility 
would be conducting whatever drug testing they should be. But 
we have known from other work that there are facilities that 
don't conduct the test or conduct a low percentage of the test 
that they should.
    Mr. Hice. Ms. Mitchell, have measures been taken to ensure 
that this won't happen again.
    Ms. Mitchell. Yes, sir, they have. Beginning in October of 
2015, our local drug program coordinators began certifying 
monthly that employees selected for random drug testing were in 
fact tested. And in November of that year, our own office began 
reviewing that data for compliance, and we have continued to do 
that.
    Subsequently, we are also working with our IT side of the 
house, not the Office of Information Technology, but with our 
partner to ensure that we have an automated way of making sure 
that everyone who should be considered for random drug testing 
is in fact considered.
    Mr. Hice. So are you saying that specific to the Atlanta VA 
or across the board?
    Ms. Mitchell. Across the----
    Mr. Hice. So are there any other medical centers where this 
type of thing could be happening?
    Ms. Mitchell. I don't have any personal knowledge of that.
    Mr. Hice. Well, shouldn't you?
    Ms. Mitchell. Well, if I were to say to you, could it be 
happening, I think it would be----
    Mr. Hice. And my question is, are there measures to ensure 
that it is not and that it will not happen?
    Ms. Mitchell. Those were the measures, sir, that I was just 
talking about.
    Mr. Hice. And those are for all our VA medical centers?
    Ms. Mitchell. Yes, yes, they are, sir.
    Mr. Hice. So you can ensure that that's not going to happen 
again.
    Ms. Mitchell. Exactly. That's why those measures were put 
into place.
    Mr. Hice. And the same would apply to the drug testing?
    Ms. Mitchell. That's correct.
    Mr. Hice. All right. And the background checks.
    Ms. Mitchell. Sir, I'm not personally involved in the 
background checks.
    Mr. Hice. Who is?
    Ms. Mitchell. It is another office within VA, but I would 
be happy to take that for the record.
    Mr. Hice. I would like that. Have there been any VA 
employees who have been fired for this or any management level 
who let this slip through?
    Ms. Mitchell. Sir, I'm not aware of that, but I would be 
happy to take that for the record.
    Mr. Hice. I would like that for the record. It seems to 
me--would you not--would all of you not agree that this is 
inexcusable?
    Ms. Mitchell. Sir.
    Mr. Hice. Then why is there no consequences?
    Ms. Mitchell. Sir, I don't have enough personal knowledge 
to comment on whether or not there have been consequences as I 
sit here today. Again, I would be happy to take that for the 
record.
    Mr. Hice. Okay.
    All right--Dr. Barnett, is there any recommendations that 
are coming down the pike timeframewise for corrections of these 
type of thing that you're aware of? I just wanted to give you 
an opportunity to weigh in.
    Ms. Barnett. We have one outstanding recommendation that 
still exists from a national drug-free workplace audit that we 
conducted. That was issued I want to say about a 1-1/2 year 
ago, closer to 2 years ago, where we did a random sample of 
facilities and then checked to see to what extent random drug 
testing was going on at that time. And there was one 
outstanding recommendation that still exists with that report, 
and that is specifically related to ensuring that folks in the 
occupations that are considered high risk or drug-testing-
designated positions are in fact coded as such in VA's 
personnel system, which is the new HR smart system, so that 
those folks are actually eligible to be selected for random 
drug testing because, once you are an employee at VA and you 
are in a drug-testing-designated occupation--physicians, police 
officers, those sort of folks--you are eligible to be selected 
on a monthly basis for random drug testing. So random drug 
testing at the facilities should be occurring once a month. The 
folks at HR&A randomly selects employees. They then communicate 
those names down to the facility level. And then in the HR 
department, at a facility level, there's a drug testing 
coordinator, and it's that person's responsibility then to 
inform those employees and have them go to the lab to submit a 
urine sample.
    Mr. Hice. Okay. All right. I thank you.
    My time has expired.
    The chair recognizes the gentleman from Maryland, Mr. 
Sarbanes, for 5 minutes.
    Mr. Sarbanes. Thank you, Mr. Chairman. I appreciate it.
    I'm glad to be back on the Oversight and Government Reform 
Committee. This is my first hearing since I've come back after 
10 years of being gone.
    Mr. Hice. We're glad to have you back.
    Mr. Sarbanes. Thank you.
    And I want to thank the panelists for coming and testifying 
obviously on a very important topic. And I share some of the 
concerns that I know have already been expressed about this 
hiring freeze and its impact on the agency. Obviously, we know 
that the VA has had some challenges, and those need to be 
addressed at various levels, and we want to make sure that's 
done, and input from the OIG periodically is certainly critical 
to that.
    But if you step back and look at the overall context for 
this conversation, the hiring freeze and the impact that it's 
going to have on the ability of the agency to function at a 
high level and to meet the needs of the populations that it 
serves is obviously at stake here. So you've got two or three 
impacts that I know others have already called attention to, 
but I want to reiterate one is just the service to all the 
veterans out there who benefit from the VA and what it has to 
over. And you impose this draconian hiring freeze when you have 
thousands and thousands of positions that are open, and that's 
going to aggravate a situation in which the agency can't 
deliver at the level that it should be able it to deliver.
    Secondly, as has been pointed out I know by a number of my 
colleagues, many of those who are currently employed by the VA, 
but certainly many who could be hired if the freeze was not in 
place, are veterans themselves and are bringing a very special 
set of experiences and perspectives and qualities to the job 
that I think are indispensable to the mission of the agency and 
the way that it functions.
    And, thirdly, just to bring it back to the hearing today, 
obviously, a hiring freeze and other kind of resource 
restrictions on the VA that are imprudent can have an impact on 
the ability of the IG and others to do the work that they need 
to do as well. So all around it doesn't seem like the freeze is 
a good idea.
    What I wanted to ask you, Ms. Mitchell, if you could 
respond, I imagine that the VA does focus groups, surveys with 
the folks that are served by the agency, as well as being in 
regular contact I'm sure with various veteran services 
organizations, and that that contributes to the perspective 
that you have on what the impact of a freeze can be. In other 
words, as you're doing these surveys, as you're getting this 
information, you may be identifying in that way that there are 
certain needs of the agency that need to be met that are going 
unmet because positions are not being filled or, alternatively, 
that there are certain strengths of the agency that we want to 
maintain that could be imperiled by not being able to keep 
positions filled going forward. So I was interested just to get 
your thoughts based on the kind of information feedback that 
you get from the populations that are served by the agency on 
exactly what some of the impacts of this freeze could be.
    Ms. Mitchell. So I have not seen anything since the hiring 
freeze began indicating anything like that, but I would be 
happy to take that for the record.
    Mr. Sarbanes. Are there surveys that have been done 
previously? In other words, it would be very interesting to 
know if some surveys or feedback you've received since the 
freeze has been put in place, but are there surveys that have 
identified needs that you think relate to the hiring freeze in 
terms of whether those needs can be adequately met going 
forward given that a freeze is now in place?
    Ms. Mitchell. I have not seen a survey myself indicating 
that. I know that different surveys are done. So I would 
certainly be happy to take that for the record.
    Mr. Sarbanes. Yeah, that would be interesting for us to get 
here in the committee because I think that might give us some 
additional context and perspective on the potential impact that 
this freeze is going to have going forward.
    Thank you very much, Mr. Chairman. I yield back.
    Mr. Hice. I thank the gentleman.
    The chair now recognizes the gentleman from Tennessee, Mr. 
Duncan, for 5 minutes.
    Mr. Duncan. Thank you very much, Mr. Chairman.
    I'm sorry I had to be in some other meetings, and so I may 
ask something that's already been asked. I'm especially 
interested in this Veterans Choice Program and how it's working 
out. My staff Allen Johnson tells me that there's a billion 
dollars of unused funding in that pot. Are the veterans--are 
they not happy with that program for some reason? How is it 
working? Who can tell me about that?
    Ms. Mitchell. I'm afraid that's not within my area of 
responsibility, but I would be happy to take that for the 
record.
    Mr. Duncan. Well, all right. Anybody else?
    Mr. Dahl. Sir, I'm with the Inspector General's Office. We 
have done work in Choice. I believe we have a report coming out 
as soon as tomorrow on Choice, and we have other work in the 
pipeline. I'd be happy to speak with the folks in our 
organization if you're interested in a briefing on the results 
of our work.
    Mr. Duncan. Well, I am very interested in that, how it's 
working. And I understand that there's some interest in trying 
to remove some of the requirements, like the distance and so 
forth, and the make it--give it a little more flexibility. I'm 
also--I didn't know about this big drug losses or theft of 
these opioids. It said--the report I have says it jumped from 
200--these losses or theft at Federal hospitals jumped from 272 
in 2009 to almost 3,000 in 2015. What is the story behind that, 
or what are we doing about that?
    Mr. Dahl. Well, within the Office of Inspector General, we 
do have an active investigation program that looks at drug 
diversion by VHA employees within facilities for their own 
personal use, or diversion for illegal sale. I'm not within the 
Office of Investigations, but I'm sure we could provide you 
more information on that if you're interested.
    Mr. Duncan. Yes, I would. All right. Since I struck out on 
my first two questions, I guess, let me ask you this, and this 
goes back several years ago. But I saw on 60 Minutes several 
years ago that there were some VA hospitals that had very low 
occupancy rates at that time, and I remember they mentioned one 
in Philadelphia that had only a 40-percent occupancy rate. Are 
there other VA hospitals that are not being utilized at this 
point, any place that we know of?
    Ms. Mitchell. I hate to be the one to say ``strike three,'' 
but unfortunately, that's also not within my area of 
responsibility, but I'd be happy to get back to you on that.
    Mr. Duncan. Okay. Well, I would be curious about that too 
so--all right. Well, I think that's pretty much what I was 
interested in. I would like some additional information on all 
three of those topics if you can provide them for me.
    All right. Thank you very much, Mr. Chairman.
    Mr. Hice. I thank the gentleman.
    And I would like to thank each of our--- yes.
    Mr. Lynch. Mr. Chairman, I just have a brief bit of 
business here. I would ask unanimous consent to enter into the 
record a letter to President Trump requesting him to reconsider 
the Federal hiring freeze, signed by I think 120 Members of 
Congress.
    I also have a letter from J. David Cox, Sr., Eugene Hudson, 
Jr., and Augusta Thomas from the American Federation of 
Government Employees, AFL-CIO, regarding the hiring freeze and 
its impact on veterans.
    And then we have a study, ``Employment of Veterans in the 
Federal Executive Branch,'' by the United States Office of 
Personnel Management. I would like to have these entered into 
the record if I may.
    Mr. Hice. Without objection so ordered.
    Mr. Lynch. Thank you. I yield back.
    Mr. Hice. Again, I'd like to thank each of you witnesses 
for taking time to appear before the subcommittee today.
    I ask unanimous consent that members have 5 legislative 
days to submit questions for the records.
    Without objection, so ordered.
    If there is no further business, without objection, the 
subcommittee stands adjourned.
    [Whereupon, at 4:25 p.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
